<html>
<title> - [H.A.S.C. No. 116-39] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-39]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

         FISCAL YEAR 2020 BUDGET REQUEST FOR MILITARY READINESS

                               __________

                              HEARING HELD
                              MAY 9, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-515                 WASHINGTON : 2020 



                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
                Brian Garrett, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     3

                               WITNESSES

McConville, GEN James C., USA, Vice Chief of Staff of the Army...     4
Moran, ADM William F., USN, Vice Chief of Naval Operations.......     5
Thomas, Gen Gary L., USMC, Assistant Commandant of the Marine 
  Corps..........................................................     6
Wilson, Gen Stephen W., USAF, Vice Chief of Staff of the Air 
  Force..........................................................     6

                                APPENDIX

Prepared Statements:

    Garamendi, Hon. John.........................................    37
    McConville, GEN James C......................................    39
    Moran, ADM William F.........................................    45
    Thomas, Gen Gary L...........................................    53
    Wilson, Gen Stephen W........................................    62

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Scott....................................................    73
    
         FISCAL YEAR 2020 BUDGET REQUEST FOR MILITARY READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                             Washington, DC, Thursday, May 9, 2019.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Good morning. We will now call the Readiness 
Subcommittee of the House Armed Services Committee to order.
    Today the subcommittee will hear from the service Vice 
Chiefs regarding the state of military readiness and how the 
fiscal 2020 operation and maintenance budgets requested support 
the military training, weapons systems maintenance, and efforts 
to meet full-spectrum readiness and the requirements in 
aligning to the National Defense Strategy.
    This year, the subcommittee has held events covering a 
range of topics, including quarterly readiness report, the 
mobility and logistics enterprises, the impacts of climate 
change on national security, military family housing, surface 
Navy readiness, and the budget requests for military 
installations.
    Those briefings and hearings have touched on important 
issues that affect the military readiness. But I think it is 
appropriate that we have witnesses here today to help inform us 
on the readiness challenges their individual services face, and 
the initiatives that they have in place to mitigate those 
challenges, and finally, how the 2020 budget request meets 
those efforts and supports those efforts.
    For the past several years, we have heard the services 
raise concerns about the state of the military's full-spectrum 
readiness after more than a decade of focusing on 
counterterrorism and counterinsurgency missions. With a 2-year 
budget agreement in place and additional resources available to 
the Department [of Defense], the fiscal 2018 was touted as the 
year to arrest the decline of readiness, and fiscal year 2019 
would begin the readiness recovery.
    Is it so? Well, that is a question I am sure our witnesses 
would want to answer.
    I hope that today the witnesses can discuss how these 
additional resources have been executed by the Department and 
where we have seen readiness and progress in readiness and 
areas that still may require additional attention.
    As we look to the 2020 budget request, which represents a 
significant increase in defense spending, I am concerned that 
the Department is once again overly focused on the long-term 
readiness that is someday out in the future through their 
various modernization programs and is not placing enough 
emphasis investing in the near term--that is, next year and 
this year--to support the training and sustainment of the 
existing weapon systems and the personnel.
    For example, the budget request only addresses 94 percent 
of the Navy ship depot maintenance requirement and 90 percent 
of the Air Force weapons system sustainment and 82 percent of 
the Marine Corps ground depot maintenance. I hope that today 
our witnesses can explain how their respective services view 
the balance between sustainment and modernization and how this 
budget request will affect the near-term readiness as their 
efforts go forward.
    Relating to the budget request, there are a number of 
programs and areas that have caught our subcommittee's 
attention that impact the readiness of the force. For example, 
the GAO [Government Accountability Office] has found that since 
2015 nearly 64 percent of the public and private shipyard 
availabilities either have been or are expected to be behind 
schedule. That obviously affects the Navy and Marine Corps 
training and readiness.
    The aviation community has shortfalls in pilot and 
maintenance personnel, mission capability rates below 
standards, and the number of challenges with the operation and 
sustainment of that famous F-35 fleet. The continued demand on 
Army forces, combined with the lack of sufficient time for home 
station training and proper equipment maintenance, challenge 
its readiness recoveries.
    And did I forget to mention border? I think I did. Hmm.
    And of course, climate change presents a myriad of 
readiness challenges both at home and abroad. It is not only a 
future threat, but it is impacting the resiliency of our 
installations and operations today as we have seen all too 
sadly at the Marine Corps Base Camp Lejeune and Tyndall Air 
Force Base and Offutt Air Force Base.
    I hope that, gentlemen, you will address how you view these 
issues and the actions you are taking or plan to take in an 
effort to address them.
    Finally, I hope that you will talk about areas where you 
are pursuing innovation as a means to improve the delivery of 
readiness, for example, things like condition-based maintenance 
plus, the adoption of commercial industrial best practices in 
supply chain management, additive manufacturing, and the use of 
live, virtual, constructive training.
    We are interested in how these innovations can improve 
efficiency, reduce costs, while supporting a more ready and 
capable force.
    Mr. Lamborn, it is your turn.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 37.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Mr. Chairman.
    It is fitting that the Readiness Subcommittee's final 
budget review hearing before markup is on the vital topic of 
military readiness. In short, are the operational units of the 
military services prepared to execute their combat missions 
when asked?
    Put another way, are the Armed Forces of the United States 
prepared to fulfill their constitutional duty to provide for 
the common defense?
    Although a simple question, building effective military 
units is an extraordinarily complex task requiring time, 
skilled personnel, resources, and maneuver area. I am glad that 
senior military leaders are here to provide us their candid 
assessment of the state of their respective services.
    I welcome our witnesses, the four military service Vice 
Chiefs, and note that General McConville has been nominated to 
be the Army's Chief of Staff and Admiral Moran has been 
nominated to be Chief of Naval Operations.
    I wish you both speedy confirmation in the other body. Too 
bad we don't have any say in that.
    We all recognize that readiness suffered during several 
years of underfunding following the 2011 enactment of the 
Budget Control Act, as well as constant use of the Armed Forces 
for a multitude of missions. Two years ago, the situation began 
to improve, starting with an infusion of funds in the spring of 
2017, followed by healthy appropriations for fiscal years 2018 
and 2019.
    All of us would like to understand how this steady funding 
has improved readiness with specific examples, what remains to 
be done, and what would be the consequences if we fail to 
support the level of funding requested in this year's request.
    We recognize that readiness is built piece by piece until a 
commander is convinced his or her unit has the people, 
equipment, and training repetitions necessary to perform the 
mission assigned. Naturally our discussion today will 
concentrate on specific parts of that equation. Do we have 
enough pilots, parts, ammunition, and so on?
    It is important to understand in detail how the money 
provided has been expended and how it contributes to readiness. 
And that is what I will be looking for from each of your 
presentations.
    As we have those discussions, I ask our witnesses and 
colleagues to keep the big picture in mind. What overall 
funding, what top-line number must we maintain to ensure that 
our troops are trained and ready when called upon?
    What do we do as a Congress to provide for the common 
defense?
    Thank you, Mr. Chairman. And I yield back.
    Mr. Garamendi. I thank you, Mr. Lamborn.
    We will now turn to our witnesses.
    And as I do, I want to follow on the introductions and the 
comments that you made, Mr. Lamborn. We have before us a couple 
of gentlemen who are, assuming the Senate agrees, going to take 
new jobs.
    General McConville, congratulations on your appointment and 
passage of the Senate hearing.
    And, Admiral Moran, the same. Both of you will, I suspect 
very shortly, have new jobs as Chief of Staff and Chief of 
Naval Operations.
    General Thomas, we thank you for joining us. I am quite 
sure that someday we will also carry on as I just did, but at 
the moment, welcome, thank you so very much.
    And General Wilson, thank you for joining us.
    As Vice Chiefs and Assistant Commandant in the Marine Corps 
and Vice Chief, we welcome you.
    Now let us have at your testimony.
    Let us start with General McConville.

STATEMENT OF GEN JAMES C. McCONVILLE, USA, VICE CHIEF OF STAFF 
                          OF THE ARMY

    General McConville. Well, good afternoon, Chairman 
Garamendi, Ranking Member Lamborn, and distinguished members of 
the subcommittee.
    Thank you for the opportunity to testify today, and also 
for your continued support of our Army, our soldiers, families, 
and civilians.
    The Army remains ready to fight and win our nation's wars. 
Currently we have nearly 180,000 soldiers in 140 countries 
around the world defending our nation's freedom. Timely, 
adequate, predictable, and sustained funding over the last 2 
years from all of you has significantly increased the number of 
our brigade combat teams at the highest levels. Our 
nondeployables have dropped from 15 percent in 2015 to 6 
percent today.
    In training, we have improved our unit readiness and 
lethality by fully funding our home station training and combat 
training center rotations. We are increasing our soldiers' 
readiness with a new Army combat fitness test and by embedding 
physical therapists, strength coaches, dietitians, and 
occupational therapists within our units.
    In line with the National Defense Strategy, we have shifted 
our focus from irregular warfare to great power competition. 
And while we have been focused on irregular warfare, our 
competitors have been innovating and investing in sophisticated 
anti-access and aerial denial systems, enhanced missile 
systems, and unmanned capabilities. To maintain overmatch, we 
must modernize the Army.
    Our modernization efforts include developing the multi-
domains operations concept echelon, executing our six 
modernization priorities, and implementing a 21st century 
talent management system. The Army has established the Army's 
Futures Command and has prioritized resources for our six 
modernization priorities, which will enable us to grow Army 
readiness for the future.
    Army's Futures Command and cross-functional teams will 
continue to produce rapid and innovative solutions to make our 
soldiers the most lethal warfighters on the battlefield. 
Soldiers are our greatest strength and our most important 
weapons system. We will continue the modest growth of the Army 
and our focus will be on recruiting and retaining high-quality 
soldiers.
    We are implementing a 21st century talent management system 
which will transform our personnel management process from the 
industrial age to the information age. The system will maximize 
talent within the force and preserve our ability to recruit and 
retain soldiers who are ready to meet any challenges now and in 
the future.
    Thank you for your time and thank for your support of our 
men and women in uniform. I look forward to your questions.
    [The prepared statement of General McConville can be found 
in the Appendix on page 39.]
    Mr. Garamendi. Thank you, General.
    Admiral Moran.

  STATEMENT OF ADM WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Moran. Thank you, Mr. Chairman, Ranking Member 
Lamborn, distinguished members of the committee, for the 
opportunity to appear before you to testify about our great 
sailors that are employed all over the globe today.
    Today we have over 65,000 young men and women serving on 
ships at sea and in foreign lands across many parts of the 
world, conducting everything from freedom of navigation 
operations in the Pacific to planning and delivering combat 
operations in the Middle East, supporting NATO [North Atlantic 
Treaty Organization] allies in parts of the world like the 
Mediterranean, the Baltic, and Black Seas, and building closer 
partnerships with whoever is willing to partner with us around 
the globe.
    Your Navy is confidently meeting these challenges while 
preparing for those of tomorrow. However, as this committee 
understands, the Armed Forces have maintained a high 
operational tempo over the last 18 years. And while the demand 
for combat-ready naval forces has remained high, a substantial 
backlog in maintenance and modernization has accrued.
    Thanks to your continuing support over the past 2 years by 
providing stable and predictable funding, we have arrested that 
decline in readiness, but we have also found ourselves on a 
steady path to recovery in the last year.
    But this recovery is fragile and it is perishable. And your 
continued support is vital to our success.
    The President's fiscal year 2020 budget request sustains 
our commitments to readiness, and it reflects a balanced 
approach to investments in people, procurement, modernization, 
and infrastructure. It provides your sailors with more time at 
sea, more time in the air, and more depth on the bench, 
everything from ammunition to spare parts to training, and as 
important is proficiency of the jobs they have been asked to 
do.
    With past as a prologue, if we revert back to more 
continuing resolutions or go as far as sequestration, the 
burden will be carried once again on the backs of our men and 
women, both uniformed and civilian, as well as our depot 
workers in public and private yards throughout the country.
    As you know, today's All-Volunteer Force is a rich blend of 
the finest young men and women this country has to offer. 
Supported by their dedicated families, they are working hard to 
achieve improved readiness for a world that is more complex, 
more contested than we have seen in many decades.
    And our sailors are keenly aware of their essential place 
at this strategic inflection point. They understand that 
increased naval strength matters now and far into the future in 
order to sustain our way of life in a prosperity and security 
of America. It is on their behalf that I thank you for the 
opportunity to appear before you and I look forward to your 
questions. Thank you.
    [The prepared statement of Admiral Moran can be found in 
the Appendix on page 45.]
    Mr. Garamendi. Thank you, Admiral.
    General Thomas.

STATEMENT OF GEN GARY L. THOMAS, USMC, ASSISTANT COMMANDANT OF 
                        THE MARINE CORPS

    General Thomas. Chairman Garamendi, Ranking Member Lamborn, 
and distinguished members of this subcommittee, thank you for 
the opportunity to appear before you today.
    The Marine Corps is manned, trained, and equipped to be the 
world's premier naval expeditionary force. We are ready to 
respond to crisis and conflict across a full range of military 
operations in every clime and place.
    As a member of the Navy and Marine Corps team, we stand 
together as part of the contact and blunt layers and the global 
operating model forward deployed to deter our adversaries and 
able to fight and win should deterrence fail.
    To maintain this capability, the Marine Corps requires 
sustained, adequate, and predictable funding to achieve 
required readiness levels and make prudent investments in 
preparation for the future operating environment.
    The support of Congress over the past 2 years has played a 
key role in allowing the Marine Corps to make significant gains 
in readiness and move towards the modernization of the force.
    As we approach fiscal year 2020, your continued support 
remains critical. Over the last year, Hurricane Florence and 
Michael caused massive damage to our facilities at Camp Lejeune 
and other places. The effects of these storms will impact 
Marine Corps readiness for years to come due to the financial 
burden of $3.7 billion in damages.
    We greatly appreciate Congress approving our $400 million 
reprogramming request, allowing us to begin addressing our most 
pressing infrastructure requirements.
    Despite these concerns, your Marines will continue to 
maximize the precious resources that have been entrusted to us. 
With your assistance, we will ensure that the Marine Corps is a 
ready, modern force that is prepared for a changing strategic 
environment.
    I look forward to answering your questions.
    [The prepared statement of General Thomas can be found in 
the Appendix on page 53.]
    Mr. Garamendi. General Wilson.

 STATEMENT OF GEN STEPHEN W. WILSON, USAF, VICE CHIEF OF STAFF 
                        OF THE AIR FORCE

    General Wilson. Chairman Garamendi, Ranking Member Lamborn, 
distinguished members of this committee, it is an honor to be 
appearing before you with my joint teammates here today.
    With my prepared statement in the record, let me briefly 
summarize a few things. First and foremost, thank you for your 
help. Without it, we would not have been able to move the ball 
forward, and we have. We continue to build a more lethal and 
ready force while fielding tomorrow's Air Force faster and 
smarter.
    Air Force-wide readiness is up 17 percent. Our pacing unit 
readiness is up 33 percent. Ninety percent of our lead force 
packages are ready to fight tonight. All of that was made 
possible by your support.
    Unfortunately, the weather was not supportive. We have had 
devastating impacts at Tyndall Air Force Base and at Offutt Air 
Force Base. At Tyndall Air Force Base alone, $4.7 billion 
dollars of damage; 95 percent of the facilities were either 
destroyed or damaged.
    We have covered those costs within our accounts to date, 
but that is not supportable. As a result, we are asking for 
your help. You are our insurance policy for natural disasters.
    We need additional disaster relief support, and we also 
need to continue with fiscal order. Without it, 2 years of 
steady progress will erode. We can prevent that and protect 
America's vital national interests, but again, we need stable, 
adequate, and predictable funding.
    I urge us to not self-select second place. I know nobody in 
that room wants that. Together we can come together and find a 
way forward. Thank you for your continued support of all of our 
airmen and their families. I look forward to your questions.
    [The prepared statement of General Wilson can be found in 
the Appendix on page 62.]
    Mr. Garamendi. Thank you, General Wilson. And for--request 
unanimous consent of the committee to put the written 
statements of the gentlemen in the record. Without objection, 
so ordered.
    I will now go to questions. And I will lead off here, and 
followed by Mr. Lamborn. Then as is the normal, 5 minutes back 
and forth across the divide here. There is no divide.
    In my opening statement, I expressed concerns about how you 
are balancing the planning and programming of modernization 
which supports long-term readiness at the expense of funding 
sustainment, maintenance, and training in the near term.
    Each of your O&M [operations and maintenance] budget 
requests appear by the numbers to underinvest in sustainment 
when compared to the identified requirement.
    Please discuss how this apparent discrepancy is dealt with. 
We will begin in the same order.
    General McConville, feel free.
    General McConville. Yes, Mr. Chairman. And our Secretary 
and Chief have determined our number one priority is readiness. 
And we have a good historical example of last year, where we 
had timely, adequate, predictable, and sustainable funding.
    We saw a great improvement in our overall readiness. And 
this year, the budget that we asked for is the budget we need. 
We have an 8 percent increase in aviation, a 3 percent increase 
in ground, and a 3 percent increase in what we are applying to 
depots.
    And we are going to take a look to make sure that is the 
right amount as we go through the year. We will assess that. If 
we don't have that correct, we will make adjustments.
    Mr. Garamendi. Admiral.
    Admiral Moran. Mr. Chairman, a very similar response from 
the Navy. We, too, program to what we think is max executable, 
so that includes--while the requirement may be very high, the 
capacity and capability to achieve that full requirement on a 
given year is often in question. It depends on how much backlog 
has occurred, especially in ship depot maintenance and issues 
like that.
    So we have funded it at the highest levels we have in my 
memory, and that is due to the support we have received from 
Congress and the President in his budget request.
    So we are on a good trajectory. And we will assess it early 
in the year, and if we need to make adjustments at mid-year, we 
will.
    Mr. Garamendi. General Thomas.
    General Thomas. Chairman, we believe that we have a 
reasonable balance in terms of investments vis-a-vis 
modernization and readiness.
    One of the things that we do is, as all of our teammates 
do, is we balance risk across the entire portfolio, but the 
measures that we look at is how we are doing in terms of 
readiness and as we meet those risk decisions.
    And all of our readiness metrics are up. We have specific 
service goals that we are striving for, and we anticipate to 
meet all those goals in fiscal year 2020.
    Mr. Garamendi. General Wilson.
    General Wilson. Chairman, just like my teammates here, it 
is much the same story as we balance both modernization and 
readiness.
    First and foremost, we think readiness is about people, and 
we have grown the force 24,500 people since 2015. But it is 
more than just the people. It is also the equipment, the 
training, the support infrastructure, the parts, the depots.
    And we think we have the right balance going forward 
between near-term readiness and long-term readiness. Because as 
you have said, today's readiness is tomorrow's modernization, 
and we have got to get that right in the balance.
    Mr. Garamendi. All of you produce a quarterly report, and 
as I recall, that quarterly report has certain goals and 
objectives. Is that correct? So I hear all of you say--nodding 
your head yes.
    When is the next quarterly report for the current fiscal 
year due? Do we call that?
    Well, I raised the question because we are going to observe 
your quarterly reports. We are going to observe the--every 
quarter the goals that you have set, the objectives that you 
had set, and should you be falling short in some area, we will 
observe it, but we would like to know ahead of time so that if 
there is a need for reprogramming or some change along the way, 
we can work together to achieve it.
    We are intensely interested in your success. And you should 
recognize that our interest is one of cooperation, or whatever 
else might be necessary, okay?
    Admiral Moran, you have an unfunded priority request for 
additional funding for submarine and ship maintenance. The USS 
Boise----
    Admiral Moran. Boise.
    Mr. Garamendi [continuing]. Boise, Boise, the city thereof, 
has been an issue for quite some time.
    Can you discuss why we are now seeing it in your unfunded 
list as opposed to it is in the budget request specifically?
    Admiral Moran. Sir, in my opening, I discussed the accrual 
of ship maintenance over the last decade. And we have begun to 
dig our way out of that in both public and private yards.
    One of the more challenging areas of this recovery path, 
though, has been in our nuclear maintenance, both public and 
private.
    And our prioritization in going after that maintenance is 
for our SSBN [ballistic missile submarine] force for all the 
reasons you can imagine, followed by our nuclear aircraft 
carriers, and a third priority is our SSN [attack submarine] 
force.
    Mixed into all that are what we call moored training ships 
or submarines. There is two of those that replace our prototype 
capabilities in Charleston and in New York. They have taken 
priority.
    So this is a symptom of those prioritizations kicking the 
next guy down in order. And Boise, unfortunately, has been at 
the tail end of that for the last 4 years. And we are short 
again in this current budget environment depot maintenance and 
capacity in the yards to be able to take Boise in. So we have 
deferred her until 2020, and we hope to start her at the very 
beginning of the fiscal year.
    Mr. Garamendi. We have had a discussion about the yards and 
the $21 billion over the next 6, 7 years----
    Admiral Moran. Twenty-one over twenty, yes, sir.
    Mr. Garamendi [continuing]. Twenty-one over twenty to 
redesign and repurpose those yards. Again, we would expect to 
be updated on a semiannual basis on the success that you are 
having in that process.
    Also the plans that we have had that discussion last year, 
would want to go back and review it again, as those plans have 
been updated with regard to the yards. We recognize that there 
is a problem in the capacity and also the balance between the 
public and the private yards and how you propose to balance 
availability in private yards that may have come in the recent 
days available, for example, the Philly yard. So if you will 
keep that in mind.
    I think many other questions. I am going to defer them, and 
we will come back on maybe a second round of questions along 
the way.
    Mr. Lamborn, if you would like to take it up.
    Mr. Lamborn. Sure. Thank you, Mr. Chairman.
    I am going to have a specific question for General Wilson 
and then a general question for everybody on what would be the 
effects on readiness if you don't get the funding that you have 
asked for.
    General Wilson, we know that the Department intends to 
create a Space Force/Space Corps within the Department of the 
Air Force.
    How is that effort progressing? And what do you need from 
Congress to help?
    General Wilson. Thank you, Mr. Lamborn.
    The Air Force has been committed to the Space Force. We 
know and our adversaries know we are the best in the world at 
space and we are committed to that. So over this last year, we 
have been working hard to grow our warfighting aspects of the 
Space Force in terms of the training and the development of the 
people who make that up.
    We are also committed to standing up a United States Space 
Command. We have nominated General Jay Raymond to be the 
commander of that, and they are anxious to put that forward as 
a combatant command.
    Mr. Lamborn. An excellent choice.
    General Wilson. He's a fantastic airman, and no one more 
capable to lead that new command. We are also working to--with 
that to look at the steps and where that headquarters would be. 
And we are working with Congress on the legislative proposal to 
stand up the new independent Space Force, which will be 
underneath the United States Air Force.
    We think those--we have got a team working inside the 
Pentagon with all the sister services to build that Space 
Force, and we think that is important moving forward for the 
future.
    Mr. Lamborn. Okay, thank you. And we stand by ready to help 
however we can on that effort.
    Now for each one of you, the years following enactment of 
the Budget Control Act had a detrimental effect on readiness. 
What are the consequences on readiness if the proposed levels 
of funding in your budget request are not maintained?
    And we will just go down the line here. General McConville.
    General McConville. Yes, Congressman. And from the levels, 
what we asked for is what we need.
    If we went back to a sequestration-type level, it would be 
absolutely devastating. All the readiness gains we made would 
be lost. We would not be able to modernize the Army. We would 
have to reduce the end strength and we would hurt the quality 
of life for all our soldiers.
    Admiral Moran. Sir, I would completely agree that going 
back to sequester levels next year would be devastating on the 
force.
    Certainly the money and investment we have made in our 
yards and our depots hiring people, ship workers, welders, 
artisans who take 5 years to build that skill before they are 
proficient and effective, in many cases, you lose all that, 
because the yards are going to have to--private yards and in 
many of your districts are going to have to be laid off. They 
are going to have to lay off workers to be able to balance the 
difference with canceled avails [maintenance availabilities].
    We are talking on the order of 10 to 15 avails that would 
have to be canceled or deferred. That is important work. And 
again, that backlog of maintenance I talked about that took 10 
years to get there and in the last 4 or 5 years of working 
really hard to bring that back, we are going to revert back to 
where we were.
    So that and, of course, naval aviation and improvements in 
readiness in the aviation force has really come--hitting stride 
here in the last year. And that is due in large part to the 
added funding and stable funding that you all have provided.
    So going to sequester levels, we are going to have to make 
hard choices about the number of people we bring on, the number 
of deployments we do or don't do, and the kind of maintenance 
we are going to be able to get done.
    Thank you.
    General Thomas. Congressman, I would echo the comments of 
my teammates.
    I would just emphasize from a Marine Corps perspective the 
readiness gains that we have made over the past 2 years, you 
know, a fairly rapid reversal of those gains. You know, we have 
talked about the balance between readiness and modernization, 
but it would also slow our modernization efforts.
    You know, some of our key pieces of equipment are 30 or 40 
years old, and we have a plan to address those, but any 
reduction in--a significant reduction in funding would 
significantly slow those efforts.
    And then, finally, our efforts to respond to our hurricane 
recovery would be greatly hampered. We would attend to those 
most immediate needs. That, of course, would even further 
exacerbate some of the other funds that we would use for 
training, maintenance of equipment, et cetera.
    General Wilson. Congressman, the military has been engaged 
almost continuously for almost the last 30 years. No adversary 
can do to us what fiscal disorder could do to us.
    Going back to budget level BCA [Budget Control Act] caps 
and sequestration level would devastate the United States Air 
Force. As a point in fact, when we went to sequestration in 
2013, we had to find about $7.5 billion.
    If we went to sequestration levels again, it would be four 
times that. That is the equivalent we would stop flying for the 
United States Air Force for the year, and that would only cover 
a partial piece of that. We would shut down all the 
modernization programs and we would erase every bit of the 
gains that we have had in the last 2 years.
    So again, I think all of our teammates here would agree 
that the most important thing is a predictable, adequate, 
stable budget moving forward.
    Mr. Lamborn. So it sounds like it wouldn't just be 
devastating to our men and women in uniform, but it would send 
a horrible signal to potential adversaries that they could make 
trouble and we would be in a lesser of a position to respond?
    It would be destabilizing? Is that your assessment?
    General Wilson. Yes, it would be.
    Mr. Lamborn. Okay, thank you. Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you, Mr. Lamborn.
    We are now going to follow the rules and the order. We are 
going to go back to the clock. It will be 5 minutes in total, 
both Q&A.
    And so, gentlemen, if you will keep that in mind, and I 
don't need to remind my colleagues here.
    Let's see. We have Ms. Torres Small. You get to start us 
off.
    Ms. Torres Small. Thank you, Mr. Chair.
    General McConville, congratulations on your new post, and 
very best of luck as Chief of Staff. My first question is for 
you.
    New Mexico's Second Congressional District, which I 
represent, is home to the Army's White Sands Missile Range and 
Test Facility, which is the largest military installation in 
the United States, and it allows the Department of Defense and 
allied partners to do open-air testing, research, evaluation, 
and training.
    From a testing perspective, can you discuss the current and 
future strategies the Army is implementing to keep testing 
costs competitive at White Sands Missile Range?
    General McConville. Yes, I can, Congresswoman. As you said, 
White Sands is a tremendous testing area. It is a huge 
facility. And we are investing in that right now. We have got 
to put some new radars in, and some new telemetry-type systems.
    The Army's number one priority is long-range precision 
fires, so we are going to be doing things that have much longer 
range, with future vertical lift, and we need a place to 
adequately test them, and we also need to adjust our systems so 
we can do the proper tests, and White Sands is going to be one 
of those places that we are going to use.
    Ms. Torres Small. Great.
    Also, what is the Army doing to attract more allied 
partners to test at White Sands?
    General McConville. Well, one of the things that we are 
doing with our partners, both in testing and really in foreign 
military sales, is one of the ways we can reduce costs, make 
things cheaper, and keep the not only organic industrial base 
but the testing base going is working with our partners, so we 
have kind of got an effort to do that.
    We haven't done a whole bunch of that before, but we are 
starting to realize the value in doing those type things.
    Ms. Torres Small. Great, thank you.
    The next question is for General Wilson. The New Mexico Air 
National Guard is the only Guard in the country without an 
operational flying mission and one of three States without its 
own aircraft. Yet the Air National Guard enterprise is based on 
established capstone principles that set the foundational 
framework for mission set application throughout the 54 States 
and territories.
    Specifically, one of these capstone principles is to 
allocate at least one unit equipped wing and flying squadron to 
each State.
    General, you spoke about that readiness is about people, 
and I tell you that the people in New Mexico Air National Guard 
are hungry for their own aircraft.
    Do you believe States that are currently able to align with 
these core principles due to divestiture of aircraft in the 
past impacts the readiness of the units and the Air Force?
    General Wilson. It comes from--obviously, when the Taco 
Guard left New Mexico was a big impact, and it was felt. So we 
look to match the missions with the Guard units, and we are 
committed to working with you moving forward to find the right 
mission for New Mexico.
    I think--our Secretary was asked about that during 
testimony, too, and she committed to that, also. So we are 
going to continue to partner with you to make sure we have got 
the right mission for the New Mexico Air National Guard moving 
forward.
    Ms. Torres Small. Thank you, General Wilson.
    Should these States be given priority for these new mission 
opportunities?
    General Wilson. Yes, ma'am. We are going to look to see, 
again, how do we match that best mission with the people there? 
And again, probably some opportunities to look at some Active 
partnerships, with local Active units and see where we can do 
that. And again, we are committed to working with you moving 
forward.
    Ms. Torres Small. Thank you, General.
    This question is also for General McConville. The most 
recent estimate provided to Congress indicates that Army 
support to the U.S. southern border operations will cost nearly 
$100 million in fiscal year 2019 Army operations and 
maintenance funds.
    Now, each one of you spoke incredibly strongly about the 
importance of predictable, adequate funding.
    As these operations and the funding requirements were 
unplanned, can you please discuss any impacts to Army 
readiness?
    General McConville. Yes, Congresswoman. Right now we have 
2,300 soldiers, title 10 soldiers on the border, about 2,000 
National Guard. That is about 4,300, at the--I would say at the 
Army level, 1 million, I wouldn't say that is a huge impact on 
readiness.
    And what we are trying to do to mitigate that is, the 
soldiers that are going down to the borders are doing the tasks 
they would do most like in the military, so the engineers are 
doing engineer work. The aviators are actually flying their 
helicopters. The logisticians are doing resupply operation.
    We are also trying to limit the time they are down there, 
you know, maybe 90 days so they can get back and get back to 
their military mission.
    Ms. Torres Small. Thank you. Please also speak to the 
activities being deferred due to this reallocation.
    General McConville. Well, we really have not had any major 
exercises deployed, as far as what those units were going to be 
used for. If you talk to some of the troops, they might have 
said they might want to train. But at the Army level, the units 
that we are sending to the border did not have another mission 
that they are being taken away or a major exercise like a 
combat training center rotation by executing the operations on 
the border.
    Ms. Torres Small. Thank you. I yield my time.
    Mr. Garamendi. Thank you. I now turn to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Wilson, I received your letter--appreciate you 
getting that to us in a timely manner--about the action impact 
update regarding the steps that you are having to take due to 
lack of a supplemental disaster bill storms that hit last year.
    If I am correct, you stopped all new work at Tyndall Air 
Force Base effective the first of the month. That had to be 
stopped. Deferring any recovering efforts at Offutt will have 
to start in July. You also created a plan to eliminate more 
than 18,000 training flying hours that will start in a few 
months, all while attempting to man the current tempo overseas 
and potential future engagements overseas.
    What impact does the loss of 18,000 flying hours have on 
our readiness, our capabilities, and our morale in the Air 
Force?
    General Wilson. Congressman, you hit the nail on the head 
about the importance of additional disaster relief funding.
    So currently, as you have mentioned, we stopped new work at 
Tyndall. On the 15th of May we are going to stop some of our 
depot inputs, which again will have a long-term impact. In June 
we will have to start cancelling some of our major exercises. 
In July we will stop new work at Offutt Air Force Base. And in 
September we think we will have to cut up to 18,000 flying 
hours.
    Any of that creates a big impact and will ripple through 
not just this year, but in the future readiness. And that is 
why we have been so insistent upon additional disaster 
supplemental funding.
    Mr. Scott. General, any time I have seen damage from a 
storm, the longer you take to clean that damage up, the worse 
it gets. The mold grows. The rot, the other things, it just 
gets worse, and it costs you more the longer you wait to repair 
it. And then in some cases some things that could be repaired 
had it been done in a timely manner now must be totally taken 
down and rebuilt.
    General Wilson. Congressman, you are exactly right.
    So today we just now are moving people out of tents at 
Tyndall Air Force Base from a storm that happened in early 
October. Realizing that we have had four Category 5 storms hit 
the United States in our recorded history, right, and this was 
a direct impact to Tyndall and the surrounding community, if 
you go there--and people have visited--it looks like a war 
zone. Ninety-five percent of the facilities have been damaged 
or destroyed.
    So we want to bring Tyndall back, and we want to bring 
Tyndall back as quickly as we can, and to do that, we are going 
to need additional disaster relief support.
    Mr. Scott. It looks like a war zone where I live, too.
    General Wilson. Yes.
    Mr. Scott. Unfortunately for us, it was our crops that were 
destroyed, and where I live, if the farmers aren't making 
money, nobody is making money.
    It is the tax base for the cities, the counties, the school 
systems, and the lack of disaster assistance, the lack of 
timeliness is going to lead in many cases to bankruptcies, 
where that wouldn't have had--that didn't have to happen. The 
gamesmanship up here has caused part of that.
    General Thomas, before I go to you, I do want to mention 
that to date I do not believe the Office of Management and 
Budget has submitted a request for disaster assistance for the 
storms of 2018.
    General Thomas, Camp Lejeune, if I am not mistaken, one-
third of the United States Marine Corps firepower operates out 
of Camp Lejeune. And how are things there?
    General Thomas. Thank you, Congressman. It is an 
operational platform for the United States Marine Corps. It is 
one of our major facilities, as you, you know, described. The 
$3.7 billion in damage is easy to see. The chairman was down 
there. Appreciate the chairman and the ranking member taking a 
look at that.
    You know, just if I were to paint a picture, and what you 
have got is 800 buildings that were severely damaged. Many of 
those buildings are old. You know, they are decades old. We 
continue to operate in what I would consider a little bit of an 
expeditionary environment. I visited the tank battalion. I saw 
a young Marine sitting at a desk where the wall was open to the 
outside air.
    We have an aircrew doing their mission planning, you know, 
in the hangar, you know, a place where they can guarantee it is 
dry. You know, Marines do what you would expect Marines, 
soldiers, sailors, and airmen to do. They have cleaned up. It 
is neat. But when it rains, you know, all those buildings are 
covered in water.
    So it has a significant impact on us. And I think as we go 
forward without additional relief what we are going to be 
forced to do is take some of those funds from our training, 
maintenance of equipment, and infrastructure elsewhere in the 
Corps to address the problem.
    Mr. Scott. Mr. Chairman, my time is expired, but I do want 
to--you know, the last hopeful report I saw was maybe by 
Memorial Day. You know, this is ridiculous. I mean, it is not 
your fault. I would tell you that any additional assistance 
that you can give us and getting the public the information 
about the damage that is being done by Congress and the White 
House not being--not getting a disaster relief bill done I 
think would help you get this done sooner rather than later.
    And I think the difference in getting it done next week and 
getting it done at Memorial Day or after Memorial Day is huge. 
And so I appreciate your service. I have to step to another 
committee meeting, but I look forward to being part of the 
solution.
    Mr. Garamendi. Mr. Scott, thank you. You are consistently 
banging this drum, and appropriately so.
    Mr. Lamborn and I did have the opportunity to visit both 
Cherry Point as well as Camp Lejeune. The members of the 
committee--it is my intention this month to visit Tyndall. And 
I would welcome any members of the committee that would want to 
join on that, date to be determined. So we will try to figure 
out when we might be able to accomplish that.
    I would just--I will forego the opportunity to make 
additional comments on this. I think the gentleman--I think 
many of the team here is aware. I will point out that the House 
is now reprocessing--or processing once again an emergency 
disaster appropriation bill. The Senate has not moved it.
    The House bill will be similar with some modifications, 
particularly dealing with the two issues that have been put 
forth here with Lejeune and Tyndall and Offutt and Cherry 
Point. That is in process, and perhaps that will cause the 
Senate to get a little more active or complete its task.
    I now turn to Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chair, and thank you, 
gentlemen, for being here today. My questions are--the first 
set of questions for General McConville have to do with the 
Chinook Block II upgrade, which is part of my community. I am 
just outside of Philadelphia.
    And I have asked other senior Army officers and leaders 
about this decision recently to pull back on that Block II 
upgrade in this coming fiscal year's budget. And I would like 
to have a three-part question for you today that has to do with 
the impact on that decision in terms of readiness.
    So if the Chinooks that are currently in service are not 
replaced with the Block IIs, as is the proposed solution right 
now, what is the plan for sustaining them in that fleet into 
the 2030s and 2040s?
    So that is my first question.
    Do you want me to give them one at a time or would you 
prefer me to give them all together?
    General McConville. Congressman, whichever way you want, I 
can do.
    Ms. Houlahan. So maybe it would be best to do it all at one 
time in case they fold into one another. And so should we 
expect to see increased funding for the Chinook sustainment in 
next year's budget and beyond? And reflecting that decision not 
to pursue the Block II procurement strategy.
    And the third question has to do with sort of supply chain 
issues. I am a supply chain person and an entrepreneur myself. 
And when you make decisions like this decision to no longer 
fund the Block II upgrades, you have made decisions down the 
chain, the supply chain, as well.
    Do you anticipate that there will be any supply chain 
implications, small businesses or suppliers going out of 
business? And what would be the plan if that were the case to 
make sure that you could sustain the existing fleet?
    General McConville. Yes, Congresswoman. And in fact, we 
just met with Boeing on that very same issue. I am very, very 
concerned about the organic industrial base, the ability to 
maintain that capability.
    What the Army right now is committed to doing is we are 
buying CH-47 Foxes and Block IIs for our special operations 
regiments. So that is going to start--they will be converted to 
Golfs.
    And the other thing we are working with--and this gets back 
to my earlier answer about foreign military sales--we are 
working with our partners. We think the CH-47 Foxtrot is a 
great aircraft. The Secretary and the Chief had to make some 
tough decisions as far as modernization.
    We want to produce the future attack reconnaissance 
aircraft along with the future long-range assault aircraft, 
which Boeing is competing for, and what we want to do is keep 
the line going for the next couple of years and then we will be 
in a position to make a decision on how we--either do we recap 
Block I's or Block II's? Do we sustain them or do we come up 
with a new way of doing that mission in the future?
    Ms. Houlahan. And what do you think, if any, of the 
implications of that decision are for downstream suppliers?
    General McConville. Well, I think--I would hope that they 
look at that is the future. I mean, what we are doing right now 
is we are kind of in the place of where we were in in the 
1970s, coming out of Vietnam, and we had a thing called the big 
five, where we came up with the Abrams tank, the Bradley, the 
Apache helicopter, the Black Hawk, and the Patriot. We see the 
same thing right now.
    So what we are recommending to industry is listen to what 
we are saying, produce these aircrafts, compete for these new 
systems that come in place, and that is what is going to drive 
the subs and everything else for the next 20, 30, 40, 50 years.
    Ms. Houlahan. Thank you. I certainly hope so. With the 
remainder of my time, this question is for anyone who would 
like to weigh in. On April the 26th of this year, the CMO 
[Chief Management Officer] of the DOD [Department of Defense] 
published a report on the reforming of the business operations 
of DOD.
    And in the report it specifically addressed our need to 
reduce delays in recruiting of civilians, which can result in 
managers substituting more expensive military or contractor 
personnel in place of less costly contractors.
    In addition to that budget effect of this substitution, 
what happens when a military service member is working outside 
of their specialty for which they were trained and are 
performing a civilian job function? And what are the effects of 
this substitution on the force as it relates to retention? This 
question is for any of you.
    General Wilson. Congresswoman, let me jump in on that. 
Getting the right force and getting them onboarded fast is one 
of those things that we have got to compete and win it for. If 
we compete with--we can't compete on money, so we are competing 
on mission and talent. So we have to have a way to bring people 
on board fast, and not doing so just hurts us in the long run.
    Once we get them on board, if we get them the right 
clearances and things, we find that they are really empowered, 
they like what they are doing, they are doing things that they 
can't do anywhere else, specifically in the cyber workforce. So 
we have to be able to continue to do that.
    And I would also ask that we look for, how do we make it 
permeable so in the future somebody--the basic questions we ask 
them, do you want to be full-time or part-time, do you want to 
be in uniform or civilian, and find a way that people can work 
in the government, maybe go back to industry, spend time in 
industry, and then decide, you know what, I liked what I was 
doing back in government, and be able to come back in quickly 
and easily with their security clearance. And I think that 
would be very helpful moving forward.
    Ms. Houlahan. I would love it if we might be able to get 
some information or data from you guys later on about how 
frequently this is occurring, where we are substituting 
military personnel in for civilian jobs. Thank you. I yield 
back.
    Mr. Garamendi. Thank you, Ms. Houlahan.
    Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    General McConville, in your written testimony you mentioned 
the, quote, recent surge in enemy ballistic missile, 
hypersonic, cruise missile, and unmanned aircraft capabilities, 
end quote. How will efforts that increase the ability of 
systems to communicate with each other, such as integrated air 
and missile defense battle command system, address this 
changing threat environment and improve Army readiness?
    General McConville. Yes, Congressman. I think, you know, as 
we move into great power competition, where we will be 
contested in every single domain--and by domain I mean on the 
land, in the sea, in the air, in space, in cyber--we must have 
systems--and IBCS [Integrated Battle Command System], we are 
looking forward to getting that in the hands of our soldiers, 
because what that is going to do is it is going to tie together 
different shooters that can actually take those missiles or air 
systems down that are protecting our soldiers with the sensors.
    So we are looking forward to getting that into the hands of 
our soldiers and moving ahead on that system.
    Mr. Brooks. Thank you. In the time that remains, Admiral 
Moran, General Thomas, and General Wilson, clearly increasing 
interoperability and communication between sensor platforms 
such as radars, fires, and command and control is not a 
challenge for the Army alone. Will each of you please speak to 
the efforts your organizations are making to meet this 
challenge? And we will start with Admiral Moran and work our 
way across.
    Admiral Moran. Congressman, thanks for the question. I 
think we--the four of us talk about this all the time. We have 
got our folks working at multiple levels in each of our 
organizations collaboratively together to solve this. None of 
us want to spend money on something somebody else is already 
fixing, so it is to our benefit to collaborate with our sister 
services to make sure that we are taking full advantage.
    We know we are going to fight in the future just like we 
are today, as a joint force. And in the environment you just 
described, speed is important, speed of decision, speed of 
orientation, all important, and we are going to have to do this 
together, so we have got to be able to put a system together 
that can talk to each other without interruption.
    Mr. Brooks. General Thomas.
    General Thomas. Congressman, a key aspect of this 
discussion is standards and making sure that those standards 
are agreed upon across all the services. We think that we are 
making significant progress in those areas.
    And then when you enter the acquisition process, you know 
that whatever you are building is not a stovepipe. I don't want 
to be Pollyannaish. I think there is a long way to go. But I 
think in terms of the discussions across the services, it is 
also--I think we have made progress in that area.
    And the last thing I would say is, you know, this is a key 
aspect of our CONOPs [concept of operations] in a great power 
competition. So this is something that we have to get correct.
    Mr. Brooks. General Wilson.
    General Wilson. All my battle buddies here--and I talk 
about this all the time, too--it is something that is vitally 
important in the future, because this is what is going to win 
in a future fight. It is beyond the technology and the 
warfighting concept. It has to connect in the command and 
control.
    So any platform, any sensor, we have to be able to connect, 
share, and learn. And so we are working that--all the service 
secretaries have signed memos that said anything we build new 
has to be the same standard.
    We have got teams working together. For example, we will 
have a partnership to stop talking about this and admiring the 
problem and make it real, going out to Nellis Air Force Base, 
to the Shadow Ops [Operations] Center, to bring together a team 
with the right developers, with the right joint teammates, with 
DARPA [Defense Advanced Research Projects Agency], with 
industry, to be able to get after this problem, because this is 
our asymmetric advantage. This will be the thing that makes the 
United States win in the future.
    Mr. Brooks. Generals, Admiral, thank you for your service. 
And Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you, Mr. Brooks.
    We now turn to Ms. Escobar.
    Ms. Escobar. Thank you, Chairman.
    Gentlemen, thank you so much not just for your testimony 
today, but for your service. I am very, very grateful.
    I represent El Paso, Texas, home of Fort Bliss and the 
Texas 16th Congressional District. So I would like to ask you 
about something that is a priority for my district. And this 
question goes to General McConville.
    As you know, Fort Bliss makes a major contribution to 
readiness as one of just two active mobilization force 
generation installations [MFGIs] for the Army. We support key 
mobilization capabilities for regular and contingency 
operations, for units and individuals, and we are the only 
installation conducting the CONUS [continental United States] 
replacement center mission, which supports missions across five 
continents.
    Fort Bliss leadership has identified railyard improvements 
as a key readiness initiative and a necessary upgrade to 
support the MFGI mission. I was very disappointed to see that 
it didn't make the cut in the fiscal year 2020 budget.
    As we look ahead and considering the importance of being 
able to rapidly mobilize personnel and equipment when 
prepositioned stock are not available, it is clear we need to 
invest today to be ready for the conflicts of tomorrow, 
something you all have been saying over and over again.
    What risks do we take by not beginning this work in fiscal 
year 2020? When can we expect to see progress on this critical 
project, do you think?
    General McConville. Yes, Congresswoman. And you know, the 
point you make about the importance of railyards and the 
ability to get critical equipment to the ports is the way we 
pretty much deploy the United States Army, especially with an 
organization that has those critical capabilities. And not 
having a modernized railyard slows down the deployment 
capability. Certainly, you know, that is not stopping them from 
deploying, but they certainly can do it better.
    You know, for us, it is a matter of priorities. We have to 
take a look at all the priorities that come in. We have other 
places and other forts that have the same concerns. And we go 
through a process to take a look at, what organization needs it 
the most at the time, giving the funds that we got? And we make 
that decision. So that will be in the decision-making process. 
We will take a hard look at that and provide you some feedback 
over the next year.
    Ms. Escobar. I appreciate that. Between training and 
mobilization, Fort Bliss interacts with units from every single 
U.S. State and territory, as you know. So----
    General McConville. It is a wonderful place.
    Ms. Escobar. It is. It is fantastic. So to my next 
question, to General Wilson and General Thomas, this is about 
resiliency. I know that many of my colleagues on this committee 
are closely tracking repairs and recovery at Tyndall Air Force 
Base and Camp Lejeune. I mean, I know that that is a key 
priority for all of us. We stand with you. You have our 
support.
    But I want to know going forward, because I am very, very 
concerned about what I believe is an existential crisis with 
climate change, how can we best plan proactively to protect our 
military personnel and resources from the challenges that come 
from climate change? Is resilience planning required? And 
standardization, should that be required, as well, across all 
installations? Would love to know your thoughts.
    General Wilson. Yes, Congresswoman, there is no safe place 
for weather. If we look at this last year, we had earthquakes, 
we had forest fires, we had tornadoes, we had flooding, we had 
hurricanes. We have to plan for resilience at our bases.
    Our bases are our warfighting power projection platform. 
And so we need to look at the requirements. We need to make 
sure we have got resiliency built in. And we also have to--to 
use Tyndall as an example--use that as an opportunity to design 
the base of the future, with the right infrastructure and the 
right resiliency built into it. And we need to do that broadly 
across all of our bases and infrastructure.
    General Thomas. Congresswoman, one of the things that we 
have seen as we have kind of gone through this last several 
months is just the importance of making sure that our buildings 
are up to modern code. What we saw again in the 800 buildings 
that were damaged at Camp Lejeune, the newer buildings that 
were up to code did pretty well. It is the older buildings that 
suffered the most damage. And so that is a key aspect of it.
    I think also within the footprint of the base itself, we 
have got to look at where we are placing, you know, new 
buildings, if water levels are at a certain area, to mitigate 
that.
    And then, you know, at a strategic look, we look across all 
of our bases across the entire portfolio and making sure that 
we are postured for the next 50 years. And so that is a 
discussion that is ongoing, as well.
    Ms. Escobar. Thank you, Chairman.
    Mr. Garamendi. Thank you, Ms. Escobar.
    Gentlemen, I will come back to this issue in the second 
round of questions. I now turn to Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And congratulations, General McConville and Admiral Moran. 
Looks like within the next few months we are going to have 
three new heads of services, with General Berger coming in as 
the Commandant of the Marine Corps, and I guess within a year 
after that, the Air Force will have a new Chief of Staff, as 
well. So literally within the next 12 to 14 months, four new 
heads of services.
    Like anything, when you are coming in, I am telling you 
what you already know, when you come in as the new Chief, you 
get to make your mark. That is the way it works historically. 
You all have done great. We talk about readiness, unit 
readiness, equipment readiness, personnel readiness, family 
readiness. Some things are finite, time and money, okay?
    And the point is, I would like you all to take this for the 
record, not to be answered now, because as we and our committee 
sit here and try to figure out and decipher the budgets, you 
know, the programs that you send to us, it is important to see 
where we need to fund warfighting readiness at all levels.
    The challenge that we all have as organizations is where do 
we stop putting O&M dollars into areas that either are legacy, 
but probably more important bureaucratic processes--anybody 
remember DIMHRS [Defense Integrated Military Human Resources 
System]? Okay, we can all smile at that, because the point is, 
as we look at the technological side of how you are going to 
run your service, we have an opportunity here under your 
command, I believe, to make the bureaucratic administrative 
changes necessary that is going to allow us to leverage those 
finite dollars so then you can have more money to put where you 
know you need it, okay?
    And this is a little bit of a challenge, but it is an 
opportunity I think that we have right now to do this, because 
what that does--let's face it, what is our goal in warfighting? 
Well, it is to win, but the ideal goal is to make sure our 
potential adversaries don't engage us in the first place 
because they know they are going to lose.
    And for us to be able to show that we are looking at how we 
fight our wars from a 360-degree perspective, and that is 
taking those dollars that maybe went down an administrative 
hole and we put them into ammunition, that sends a real strong 
signal as to how we are moving forward.
    So I guess I would just say, we will be your partners. You 
know, one of the leadership of the subcommittee here in 
readiness is how we evaluate that, but I believe we are going 
to have an opportunity here to move forward on showing where we 
can, again, decrease some of the spending.
    And it is not necessarily wasteful. It is just kind of 
unintended consequences, because we have been doing it this way 
for so long. So I guess this is more of a statement than asking 
questions, but I would--if you could for the record--sometime 
in the next month or so--give this committee an example of 
where you did it jointly or within your service of cutting some 
behind-the-times bureaucratic administrative costs, that you 
said, no, we looked at this and we said, nope, we are not going 
to spend money on this before.
    This would I believe be helpful for the committee. So with 
that, Mr. Chairman, I yield back.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Thank you, Mr. Bergman. A very good 
question. And we will expect to get that answer, certainly pass 
it around to the members of the committee.
    Ms. Haaland, I notice you are here. Your turn, thank you.
    Ms. Haaland. Thank you very much, Chairman.
    My first question is for General Wilson. And I just wanted 
to follow up on a question that my colleague, Ms. Torres Small, 
asked earlier. And so it is, are there opportunities within the 
existing budget request to achieve this capstone principle of 
allocating at least one unit equipped wing and flying squadron 
in each of the 54?
    General Wilson. Congresswoman, we will certainly look into 
what is in the art of the possible, working with New Mexico 
moving forward.
    Ms. Haaland. Thank you so much. And my next question, I 
think it--like each one of you can answer this. It has to do 
with energy, resiliency, and renewables. The Defense Science 
Board Task Force on Survivable Logistics made recommendations 
on the urgent need to modernize our military's joint logistics 
enterprise. They recommended that the military departments 
focus any RTD&E [research, testing, development, and 
evaluation] funds on fuel demand reduction, local generation of 
electricity, increasing battery storage, and decreasing battery 
weight, and to establish a logistics RTD&E board to synchronize 
RTD&E investments in these spaces.
    Do you plan to implement this recommendation? And would the 
services benefit from more coordination across the services? 
And we can start and go down the line.
    General McConville. Yes, Congresswoman. We understand the 
importance of energy conservation. You mentioned batteries. And 
I need to go out to Fort Carson, Colorado, which I did not know 
until I started taking a look at this, but we have supposedly 
the biggest battery in the Federal service. And there is a huge 
battery that we are using out there that is helping us give 
energy resilience. It is also helping us work with the private 
company out there to reduce the spikes in energy.
    So we are getting resilience, and we are also getting some 
savings, and we are also helping them out as far as spikes go. 
So we are looking for those type of things along with what 
everyone else is doing to get more energy-efficient buildings 
that are resilient and also save energy.
    And just one final idea, as we build new systems, we are 
doing an improved turbine engine program, and we are getting 
efficiencies to that. We are getting, you know, a lot better 
horsepower out of the ends, but we are also getting better 
utilization of energy to power those engines.
    Ms. Haaland. Thank you.
    Admiral Moran. I would say the same for the Navy in terms 
of infrastructure. As we put new buildings out, we replace 
housing units, there is a lot of opportunity there in the 
energy savings.
    But on a broader operational front, I would say that for 
the Navy, we have a great interest in trying to be energy 
efficient so that we have to refuel less, whether we are 
talking about aircraft or we are talking about ships. So 
looking at hybrid electric, integrated electric drives that 
don't rely as much on fuel, especially when we are in places 
where we don't have to move at high speed.
    Ms. Haaland. Excellent.
    General Thomas. Congresswoman, I would, like my colleagues, 
emphasize the importance of when we are looking at 
infrastructure across our bases, any times we are building 
something new, there is tremendous opportunity to employ energy 
efficiency technologies. And we are seeing that across all of 
our bases.
    But there is the operational aspect, as well. Admiral Moran 
talked about from a Navy perspective. From a Marine 
perspective, you talk about fuel. That is weight. So we are 
looking for opportunities to have to carry less stuff. And so 
to the extent that we can operationalize that, that is what we 
are trying to do.
    And we have actually been doing that over the past--with 
our joint teammates, we have an expeditionary energy office 
that looks at things of that nature, and we have--we have had 
some success over the past 15 years in Iraq and Afghanistan 
employing those technologies.
    Ms. Haaland. Thank you.
    General Wilson. Congresswoman, I would say it is much the 
same for all the infrastructure. We are also working on those 
things that they have talked about, whether it be adaptive 
engines to give us better fuel efficiency, whether it be 
wingtips, winglets on the engines or the wings of the airplane 
to give us, some around the fuselage.
    We are looking at software that helps us predict and plan 
our routes to be more fuel-efficient. So we are looking across 
the gamut. We know how important energy is to all of us, and we 
are trying to find all those savings that we can.
    Ms. Haaland. Thank you. Thank you so much. And, Chairman, I 
will yield back. Thank you.
    Mr. Garamendi. Thank you. I now turn to Ms. Horn.
    Ms. Horn. Thank you, Mr. Chairman, and thank you all for 
being here today.
    General Wilson, I want to start with you. I represent 
Oklahoma's Fifth Congressional District, which as I am sure you 
know is adjacent to Tinker Air Force Base. And when we are 
talking readiness, we can't do so really without talking about 
the critical piece that our depots play.
    And as Tinker works with aging airframes, from the KC-135 
the B-1, the B-52, and many other critical components, it is 
also an economic engine as well as a support to our forces 
across the Air Force and their readiness.
    So I want to ask you about issues surrounding the overall 
facilities. There was a GAO report about military depots and 
actions needed, entitled Military Depots, Actions Needed to 
Improve Poor Conditions of Facilities and Equipment That Affect 
Maintenance, Timeliness, and Efficiency.
    And in that report, it specifically mentioned the repair of 
equipment at Tinker being poor and exceeding its useful life. 
So with that in mind, what is the Air Force doing specifically 
to address this problem in both the short and the long term? 
And what is the strategy for addressing the--what it estimates 
is $104 million backlog restoration at Tinker?
    General Wilson. Yes, Congresswoman, you are correct in that 
our depots are critical to our warfighting capability moving 
forward, specifically Tinker.
    I would say we work closely with the GAO and we agree with 
lots of things.
    Let me maybe nuance the part. Certainly the facilities are 
important, and we have work to do to improve those, but besides 
the facilities, it is also the people that work there, the 
equipment there, and in our case we are dealing with airplanes 
that are often way past their design life.
    So when I bring in a KC-135 that is, you know, over 50 
years old, we are finding things that we have never found 
before.
    So it is important that we have all those pieces not only 
from the facilities, but the people and the equipment, and then 
that we are looking at all the processes we can to speed up the 
depot throughput.
    We think we have seen some improvements to that, that we 
have done some blue suit maintenance and some work with our 
processes. And we have done it now 30 percent faster than we 
have done it under the contractors before.
    But it is an ecosystem that supports the depots. Again, it 
is the facilities, but beyond the facilities, it is the people, 
the equipment, the parts, and the process that is supported.
    Ms. Horn. Absolutely. And the chairman and ranking member 
visited me at Tinker. We toured the facilities. And they are 
absolutely to their credit doing amazing work at Tinker, both 
the civilians as well as our uniformed service members.
    And the efficiencies that they have been able to put into 
place in the maintenance of these KC-135s and other aircraft 
are really phenomenal. And I think it is important to note that 
they have increased the speed of the turnover by 40 percent at 
half the cost of recent industry contract proposals. So that is 
really important.
    But I also want to visit a question that some of my 
colleagues have touched on about the industrial base, because 
one of the challenges that Tinker and I am sure other depots 
are facing right now with the maintenance of aircraft that are 
60-plus years old, they are finding things that are breaking, 
as you said, in new ways. And the inability of--or sometimes 
the absence of OEMs [original equipment manufacturers] and the 
parts, the work that is being done there at the Rapid 
Sustainment Office to fill those gaps is really critical.
    So next step is my question is, what additionally is the 
Air Force doing to encourage the industrial base and the small 
or smaller contractors to fill these holes?
    General Wilson. It is a great--we just met as an example in 
New York City with small businesses and in one day awarded 51 
contracts to small businesses, where they came in, they gave a 
pitch, they had a one-page contract, and they were on business 
with United States Air Force.
    We are trying to knock down all the barriers to doing 
business with small business, which is all across of our 
country. As a tagline that I thought was fantastic, one of the 
small businesses says it is easier and faster to do business 
with the United States Air Force than it is to get a beer in 
New York City, right? That is a good testament to what we are 
trying to do as we build and modernize the force faster and 
smarter.
    And we realize that all of our--it is vitally important to 
our nation to have this industrial capability, and we are going 
to need all hands on deck to be able to do that.
    Ms. Horn. Thank you. Yield back the balance of my time.
    Mr. Garamendi. We are going to do a second round. So if you 
have got to go, you have got to go, but you can have another 
shot.
    I want to thank our members for raising a whole series of 
really critical issues. And each time they spoke, I started 
adding to my list, so we are good for about another 3 hours. 
Can you gentlemen stay with us?
    With regard to the question of the industrial supply base, 
last year, in our wisdom, we created a program called--section 
846 of the, I think, 2019 NDAA [National Defense Authorization 
Act]. It is called the Defense Manufacturing Community Support 
Program. I am sure you four gentlemen are very much aware of 
this. I became aware of it about an hour and a half ago, not 
that I had read every line of last year's NDAA.
    It has not been funded. It is in appropriation. It is 
specifically designed to address the problem that we saw at 
Tinker, that is the major contractors have given up providing 
the parts necessary for the 135 and other legacy platforms. 
This may be a solution in bringing into the industrial supply 
base new manufacturers, small manufacturers, and the like.
    I was looking to trying to put $50 million into the 
appropriation bill to fund this program so these gentlemen and 
their services can make use of this outreach that occurs. It 
also was tied into a tax bill that provides certain tax credits 
for certain parts of America that are in economic distress.
    So I will leave that one to you. Here is a note for you. 
And for you gentlemen, we will get the same thing.
    The other thing has to do with the issues that were raised 
by my colleagues here, the energy issue. It is in the law. It 
has been there for, I think, about 5 years now. This committee 
will press you hard on that, looking for resiliency on the 
base, base energy resiliency, and energy reduction.
    We don't need to talk about climate change. We need to talk 
about energy reduction, cost savings, and the like. All of you 
talked about some of the things that you are doing, good. You 
might consider some of those gas guzzlers that run around on 
your bases. They could be electric cars. Many, many things, 
energy conservation, all of that.
    That ties back to what I have shared with everybody that 
cared to listen, and that is that the building codes going 
forward are going to be--we are going to try to make them the 
strictest in the nation with regard to sustainability, wind, 
earthquake, fire, and energy conservation. So be aware of that.
    In this year's NDAA and appropriations, previous years' 
military construction programs are going to be funded. We 
believe that many of those are not built to the highest 
standard or to modern today standards. They are designed for 
yesterday's standards. I would ask each of the services to look 
at those specific programs and military construction programs. 
And in the normal process of design change and construction 
changes that occur, it may be appropriate and possible to 
improve the energy resilience, conservation, wind, and so 
forth, with very little additional cost, if any. It might just 
be a simple additional screw that is put into the rafter.
    So if you will take a look at that, keep that in mind. We 
don't want to change the design plan, but I have been through 
enough construction over the years to know that there has never 
been a construction project that didn't have changes along the 
way. And so keep that in mind, and we will help you by 
providing some language in the NDAA so that you are reminded.
    With regard to Camp Lejeune and Cherry Point, as well as 
Tyndall and Offutt, I shared this with the services, your plans 
must be presented to us on how you are going to address the 
risk at that base. It may be flooding. We have talked about 
this at Camp Lejeune and Cherry. We didn't pick up and you 
didn't mention Parris Island. We have to add that discussion.
    With regard to Tyndall, you have given us a preliminary 
report on what might be there. I looked at it, and it looked to 
me like you are building right back where you were. I hope that 
is not the case.
    It appears that a good many of the buildings at Tyndall are 
on the beachfront, or at least the front of the waterway there. 
Storm surge is going to happen. Another Category 5--there may 
have been five in the last century; there are certainly going 
to be five in the next. There are going to be Category 5 
hurricanes in that area, and I want to, as you said, but did 
not put in your plan, General Wilson, at least what you have 
given to us, the relocation of facilities away from the most 
harmful and most likely area to be harmed.
    We are going to look at that very carefully. We are going 
to scrub it. You are going to scrub it first. We will look at 
it. If you go back and build where it was destroyed, you better 
be able to tell us there is absolutely no other place, and then 
you better build it for the worst possible case, similarly.
    And for the rest of you, one of our colleagues talks about 
base access roads. I suggested maybe waders would suffice at 
Norfolk and we can save some money. Admiral Moran, you got a 
problem, you know it. Not only there, but other places. Sea 
level rise is real. And the Army, we can probably find 
someplace where you have got a similar problem.
    So, please, keep in mind that this committee is going to 
want to build for the next 70 years. And we are going to assume 
the worst possible thing to happen. Don't want to pick on the 
Marines, but there is going to be a fire at Pendleton and it 
right now could probably take out your housing program, too, 
and probably some other things. And I am sure the rest of you 
have similar circumstances.
    So that is heads up. We are going to watch it closely. We 
will put language in to encourage you to do it, and we will 
follow along on that.
    One final point, and that is my current thing that just 
wakes me up--it doesn't wake me up, doesn't put me to sleep, 
either, but during the day I ponder--there was a billion 
dollars of unused money in the Department of Defense 2 months 
ago. It was in the Army personnel account. For whatever 
reasons, you didn't meet your recruiting, didn't spend the 
money, it was sitting there, a billion dollars.
    By most accounts, it was somewhere, $1,150,000,000 of 
immediate expense to just clean up Cherry Point, Lejeune, and 
Tyndall. That billion dollars was used to build a fence on the 
border, not for the needs of the military, even though the 
money was already in the military. I know how it was done, 
transferred the money over to a counternarcotics program which 
has the authority to build facilities to stop narcotics. That 
is a game that made this chairman very, very angry.
    Now, your job is to take an order and salute and get it 
done. It is not you. This is a message for the service 
secretaries that didn't say one word of opposition when you, 
General Wilson and the Air Force, were in desperate need of 
money to clean up a terrible disaster that happened at your 
bases. The same for you, General Thomas.
    So we are short of a billion dollars. Presumably we will 
have a fence someplace.
    The question for this nation is, is that fence more 
important than Tyndall Air Force Base getting back under 
operation and Camp Lejeune and Cherry Point?
    I don't expect you gentlemen to answer, but I want that 
message to be on everybody's mind, because the next brick is 
going to fall. And it is going to fall this Friday, by all 
accounts. And that is the existing military construction budget 
that may be whacked for $4 billion of programs that are thought 
by every one of your services to be the highest priority. They 
have been scrubbed and reviewed by not only your services, but 
by the Appropriations Committee in both Houses and the 
authorizing committees in both Houses, and found to be 
necessary.
    About $4 billion of projects may be taken out of your 
services. We will be expected to backfill it. Where the money 
is going to come from isn't known yet, but there is a limit for 
the amount of money that is available, and it is going to come 
from something in the Department of Defense.
    So maybe it will come from, I don't know, fuel for your 
airplanes. I don't know.
    So we have got to be aware of what is going on here. And 
this is a very serious problem for the nation's defense. And I 
don't know when you are going to get the--General Wilson, when 
you are going to get an emergency appropriation bill. It is 
locked up in the Senate. As I said earlier, we are going to try 
to push something again through this House, maybe get things 
moving, maybe not.
    But you just said it is a critical problem for the 
readiness of the U.S. Air Force, and I am sure it is for the 
Marines, also. There are consequences to stupid decisions that 
have been made. And the consequence here is the nation's 
security. So just be aware that as chairman of this committee, 
I am watching this closely. I am very, very concerned about 
what the long-term and short-term readiness implications will 
be.
    I don't know if I asked you guys a question. I guess I made 
some comments. But be aware that on all of these matters we 
will be paying very, very close attention to it.
    Mr. Lamborn, if you have another question, it is your turn.
    Mr. Lamborn. Yes, thank you.
    I do have a couple of specific questions, although let me 
in response to what you just elaborated on, I want to say that 
there is another side of the story. Many of us do feel that the 
situation at the southern border is also a national security 
issue. It is Homeland Security, not DOD. However it is a very 
important issue.
    I would not use the word stupid myself. I would say that 
there are well-considered arguments actually in favor of 
beefing up the southern border. But we are not going to get 
into that here.
    What I would like to get into here, though, I have a couple 
of specific questions, but before I ask those easy specific 
questions, could you all talk about prepositioned stocks?
    How is the stockpile that you are concerned about? And what 
does Congress need to do to make sure that that is at 100 
percent?
    General McConville. Congressman, I will go ahead and start.
    And first of all, prepositioned stocks are absolutely 
critical for the United States Army. You know, we have a 
concept of dynamic force employment, which allows us to quickly 
move forces around the globe, and by having those prepositioned 
stocks, we can quickly follow-on equipment, but if the 
equipment is not ready to go, if the ammunition is not there, 
if all the logistics are not there, it really doesn't 
accomplish the mission that we want to do.
    The funding we have had over the last 2 years has really 
significantly improved that. We have put significant amounts 
into all our prepositioned stocks, and we are at a much higher 
rate of readiness because of that.
    Admiral Moran. Congressman, same for the Navy. We are 
taking a hard look at our logistics network to include PREPO 
[prepositioning]. It is old. It needs replacement. And we are 
working on some--we are working on some opportunities to change 
that, working with this body, Congress, to help us have the 
authorities to do what we need to get a more modern force that 
can resupply the force.
    Mr. Lamborn. Okay.
    General Thomas. Congressman, we are very grateful for the 
support that we have gotten from Congress to help us get our 
prepositioned stocks where they need to be. From a Marine Corps 
perspective, places like Norway, and then munitions as a part 
of the Department of the Navy.
    As we look forward, and, you know, posture going forward 
for the joint force, you know, I think that prepositioned 
stocks is going to only become more important.
    Mr. Lamborn. Okay. But do you feel that the Marine 
prepositioned stocks are up to snuff?
    General Thomas. They are right now, yes.
    General Wilson. Congressman, it is the same thing for the 
Air Force. We appreciate Congress' support to give us the 
funding to be able to do that, to be able to support 
prepositioned both in Europe and the Pacific. And we have 
increased our stocks across the board, and including munitions.
    Mr. Lamborn. All right. Okay, thank you.
    General McConville, can you tell me about synthetic 
training environment? That is something I don't really know a 
lot about, I will admit, and I would like to know more about 
it.
    General McConville. Yes, Congressman.
    We are really excited about the synthetic training 
environment. I would equate it to virtual reality training.
    And in fact, we are putting a system in place--we are 
calling it the integrated visual augmentation system. What it 
is going to allow our soldiers to do is to go into virtual 
reality and train on a mission that they are about ready to 
accomplish, and what that allows them to do is do 30, 40 
repetitions of that actual mission.
    And it is virtual. It is real. And they can practice, they 
can rehearse, they can hit the sled a whole bunch of times, and 
then they could actually take the same equipment we are 
developing and go and execute the mission.
    Mr. Lamborn. Well, you and I are going to have to go 
through that, experience that firsthand.
    General McConville. No. We do--this is cutting-edge 
technology. It is going to transform the way we train soldiers 
and the way soldiers operate in combat. We are excited about 
it.
    Mr. Lamborn. I am excited, too.
    General Wilson. Congressman, I will jump onto that, because 
we are using the same thing, for example, in pilot training 
next, where we are using today's state-of-the-art technology 
and we are finding that we can produce pilots quicker and 
actually better. We have our first couple classes underway, and 
the results are astounding.
    Mr. Lamborn. How is it different than the old simulator 
approach to training?
    General Wilson. Well, it actually takes it to the next 
level. So if you were to go to--we have got one in Austin to be 
able to do this. You put on virtual reality goggles. It is 
basically looking at your eye movement. You are able to do 
multiple repetitions.
    It is not expensive to do this. And again, students can go 
through hundreds of reps, where before they couldn't do that. 
So it is really reducing the amount of time it takes to train 
folks.
    Mr. Lamborn. Critical--yes, Admiral, did you want to----
    Admiral Moran. I will just piggyback on what General Wilson 
just commented on. The Navy is--and the Air Force and Marine 
Corps--shifted heavily towards what we call live, virtual, 
constructive. So we can take--and this is an energy savings 
step that is really important to understand--so in the old 
days, not too long ago, we used to actually have to fly ``red 
air'' to present enemy forces to a live event with your own 
``blue air'' force.
    Nowadays you can inject that virtually through the system. 
It will show up on the radar. It will show up on the heads-up 
display in cockpits, on ships, and in other areas as if it were 
real.
    So you are saving all that money by not having to generate 
other red air or red surface/submarine forces, red missiles 
that are coming at you. That can all be done through a live, 
virtual, constructive environment. It is really beneficial to 
training, because you can do more reps and sets than you could 
if you had to put airplanes up or shoot live weapons.
    Mr. Lamborn. Well, it sounds, Mr. Chairman, like that is 
going to take readiness to the next level, so that is really 
exciting.
    Mr. Garamendi. It will if these simulators are paid for and 
available on time. And I understand--I am trying to remember 
which of the four forces has a problem with the more advanced 
simulator, and it has been delayed a bit. I think it might be a 
ship simulator.
    Admiral Moran. No, sir. If the budget goes through, we are 
appropriately funded to deliver those on time.
    Mr. Garamendi. Not fair to toss the ball back here.
    [Laughter.]
    Mr. Wilson, you had a question, let me----
    Mr. Wilson. And thank you very much, Chairman Garamendi.
    And as a Member of Congress, as a veteran, but mostly as a 
military dad, four sons who have served in the branches, it is 
just so reassuring to have such leadership on behalf of our 
country.
    Thank you for what you mean to the people of the United 
States and promoting freedom around the world.
    And General McConville, I am grateful that the Army's 
efforts over the last 2 years to address the decline of 
readiness. The Army's goal is for 66 percent of the Active Duty 
forces as rated to meet full-spectrum readiness requirements by 
fiscal year 2022.
    As the current Vice Chief of Staff and future Chief of 
Staff, do you think the Army can achieve the goal of 66 percent 
by 2022? What are the challenges and obstacles that might 
prevent you from attaining the goal? Is 66 percent enough to 
meet the goals of the National Defense Strategy? And does the 
budget align with that goal?
    General McConville. Congressman, first of all, we believe 
we will make it. And again, I don't want to push it back to 
you, but the timely, adequate, predictable, and sustainable 
funding is going to allow us to do that.
    We have a positive path right now. We have seen what has 
happened over the last 2 years. And we are convinced if we get 
the resources that we can get to that level, and we believe 
that level is going to be sufficient for the threats we are 
going to face.
    Mr. Wilson. Well, again, we just appreciate your 
determination and best wishes on your future position, too. And 
additionally, General, the Army's operation and maintenance 
account request includes an additional $132.5 million for 
maneuvering unit accounts. These accounts support training and 
operations for the Army's brigade combat teams to maintain 
readiness.
    How does the budget request impact the number of combat 
training center rotations for the Army's brigade combat teams? 
How are the combat training centers developing the environment 
to support the multi-domain operations?
    General McConville. Yes, Congressman.
    First of all, the funding gives us 32 rotations. Twenty-
five of those combat training centers are what we call decisive 
action type rotations. And what we will do is, we will immerse 
our soldiers into situations where they are basically contested 
in most of the domains they are going to see in the 
battlefield.
    So it is just not the ground. They are going to have 
electronic warfare challenges. They are going to have cyber 
warfare challenges. They are going to have space challenges as 
they execute their operations.
    And so, as we train our forces for the future, we are not 
trying to fight the last fight better. We are trying to win the 
next fight.
    Mr. Wilson. Thank you very much, General.
    And Admiral, with the multiple collisions, sadly, that we 
have had in the past several years, what is--in your testimony, 
you indicate that there has been a budget assignment of the 
highest priority of recommendations to the comprehensive review 
and strategic readiness review [SRR]. What is this budget that 
directly addresses the readiness shortfalls in training, 
maintenance, and operations to prevent future collisions?
    Admiral Moran. Sir, in the fiscal--we have already invested 
close to $100 million in the last year and a half since the 
collisions. We have got $348 million in fiscal year 2020 and 
over a billion dollars across the FYDP [Future Years Defense 
Program] to do all of the things that support every single 
recommendation in the comprehensive review and the SRR.
    Mr. Wilson. And thank you again for your determination to 
address this on behalf of the health and safety of our naval 
personnel.
    And General Wilson, the former Secretary of Defense James 
Mattis directed the Air Force to achieve 80 percent mission 
capability by the end of fiscal year 2019 for combat-coded 
strike aircraft.
    Will the Air Force meet this goal for F-15, F-22, and F-
35A? How does the budget enable the Air Force to meet these 
readiness goals?
    General Wilson. Congressman, I am confident we are going to 
make it on the F-16. We have put a lot of money into the parts 
to be able to improve our MC [mission capable] rates, and we 
have seen an improvement across the F-16 fleet.
    For the F-22 fleet, I am not as confident, and that is 
because of the impact of Hurricane Michael. We had to dislocate 
all the families that are now just showing up at the new bases, 
as well as the critical driver for the F-22 is our LO [low-
observable] maintenance. And we had to shut down our LO 
maintenance facility at Tyndall for about 6 months. It is now 
back up and running, but I am not confident we are going to 
make it for the F-22.
    For the F-35, all of us--the Navy, Marine Corps, and the 
Air Force are working hard to make sure we have got the right 
parts in the system to be able to try to achieve that 80 
percent MC rating.
    Mr. Wilson. And as I conclude, General Thomas, we are 
really grateful for the F-35s located at Beaufort Marine Corps 
Air Station. It is such a positive enhancement to that very 
significant military facility.
    I yield back the balance of my time.
    Mr. Garamendi. Mr. Wilson, thank you for raising the F-35. 
This committee is going to spend a lot of time on the F-35. The 
issues were just--we decided to put them aside today because it 
demands at least one full hearing, if not multiple hearings, to 
deal with all of the issues in the F-35. We will get to that.
    One of the things that was raised here early on--I think it 
came out, Ms. Horn, with regard to Tinker.
    The reality is that the services are dependent upon 
civilian personnel. The training, the ability to hire civilian 
personnel, I know, Admiral Moran, you have hired several, 
twenty-some-thousand at the various shipyards. I recall the 
number somewhere in that range.
    That is an important piece of it. There are hiring issues. 
There are training issues. We want to go into those. We will go 
into those in depth with--at a later--not a hearing, but 
probably briefing. Would welcome the participation of certainly 
the staff and the members as we get into the civilian personnel 
issues and the training issues.
    Just going through my notes, and don't want you gentlemen 
to escape without the final word here. Finished?
    With that, gentlemen, thank you very much. Congratulations 
once again, General McConville, Admiral Moran. Thank you.
    And we will look forward to our next iteration in the 
readiness of the services.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 9, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 9, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 9, 2019

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. General McConville, I know Army readiness and 
modernization is at the top of your priority list. Your posture 
statement centers around improving the training of your soldiers and 
all 10 of the Army's top unfunded requests are tied to readiness. You 
and your team have initiatives to reduce ``non-deployable'' soldiers 
from 15 percent to 6 percent. In addition, your focus on collective 
training emphasizes high-intensity conflict, utilizing complex terrain, 
and under degraded environmental conditions.
    1. As urbanization increases globally, could you discuss your 
efforts to focus the Army's ability to train in dense-urban terrain and 
subterranean operations?
    2. From the platoon level through the battalion level at the Combat 
Training Centers (CTCs), are you currently able to meet all your 
training requirements? What gaps do you foresee for potential future 
conflicts?
    General McConville. The Army places a high priority on training in 
dense urban terrain (DUT), including subterranean (SbT). Army Special 
Operations Forces (ARSOF) have standing training requirements for SbT. 
General Purpose Forces (GPF) units train in DUT as an environmental 
condition, with select GPF units conducting SbT training related to 
specific Operation Plans (OPLANs) and mission requirements (e.g., U.S. 
Indo-Pacific Command OPLAN). GPF units have access to training 
locations, to increase proficiency with DUT, including 35 Urban Assault 
Courses (UACs) located at 30 different Army installations, such as the 
Underground Training Facility (UTF) 50 at Ft. Hood, TX; the Asymmetric 
Warfare Group (AWG) urban training site at Ft. A.P. Hill, VA; the 
Muscatatuck Urban Training Center (MUTC) in Butlerville, IN; the tunnel 
system (repurposed trench complex) at Fort Bliss, TX; and the four 
tunnel/cave complexes and the large Ubungsdorf Military Operations on 
Urban Terrain (MOUT) site, both located at the Joint Multinational 
Readiness Center (JMRC) in Hohenfels, Germany. In addition to these 
fixed sites, the Army has three Mobile Training Teams (MTT) that 
conduct SbT operations. The Army is increasing DUT training 
infrastructure at our Combat Training Centers (CTCs) through specific 
military construction investment in multi-story buildings to expand 
existing large MOUT sites at both the National Training Center (NTC) 
and the Joint Readiness Training Center, as well as by funding a design 
effort for a large (approx. 1800 buildings) DUT facility at the NTC. 
Finally, the Army contributed to the Department of Defense classified 
report on subterranean training as requested in Senate Armed Services 
Committee Report 115-262, accompanying S. 2987, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2019.
    Yes. Army Combat Training Centers (CTCs) are able to build on home 
station training to prepare units for current known operational 
requirements and for decisive action in major combat operations against 
contemporary threats. The CTCs constantly examine ways to prepare 
forces better. For example, CTCs have increased the use of enemy 
drones, jamming, chemical attacks, unmanned aerial system sorties, and 
indirect fire, and are planning to increase CTC capability to train 
forces in dense urban terrain (DUT). Army CTCs remain ready to adapt to 
specific requirements of any long-term contingency or named operation 
by providing mission rehearsal exercises for rotational forces. In the 
coming decade, the Army will fully develop operational concepts and 
training for multi-domain operations. The CTCs will need to replicate 
criminal organizations, civilians on the battlefield, DUT, and other 
complex terrain as parts of the operational environment (OE). These and 
other OE factors must be realistically replicated in CTC training, such 
as peer/near-peer opposing force, cyber, space, deception, electronic 
warfare, and artificial intelligence threats.
    Mr. Scott. General Wilson, I have had several conversations with 
Air Force leaders about the Joint Surveillance Target Attack Radar 
System (JSTARS) and the Advanced Battle Management System (ABMS). Now 
that the decision has been made to maintain the current fleet of JSTARS 
aircraft through 2034 while the Air Force transitions to ABMS, I am 
focused on the Air Force's Battle Management and Intelligence, 
Surveillance, and Reconnaissance (ISR) enterprise. With consistent 
resourcing shortfalls, the Air Force and the Department of Defense must 
field capabilities that exceed the current Battle Management-ISR 
enterprise, while ensuring the men and women at Robins Air Force Base 
receive all the assistance they need to make a seamless transition.
    1. I have been assured that the ABMS mission will remain at Robins 
Air Force Base as JSTARS phases out. What is the Air Force's plan to 
begin MILCON for ABMS at Robins Air Force Base?
    2. Regarding personnel numbers associated with ABMS, when can I 
expect a final determination on the number of employees, Airmen, and 
civilians, that will be assigned to conduct the ABMS mission?
    General Wilson. The Advanced Battle Management System (ABMS) 
Analysis of Alternatives (AOA) Team is working diligently to complete 
their analysis and prepare their final report. Recently, the United 
States Air Force (USAF) determined a need to extend the AOA by several 
months to complete the analysis of a broader range of capabilities. 
Once the AOA is completed and assessed, the USAF will begin planning 
and programing for any future ABMS organizational construct required, 
including any required manpower and MILCON for units and locations 
within the ABMS Family of Systems (FOS). The AOA results, combined with 
data from the strategic basing process, inform USAF decisions on 
appropriate basing and support locations. The USAF envisions Advanced 
Battle Management (ABM) FOS elements at multiple locations, leveraging 
the infrastructure and talents resident in the Command and Control 
(C2), Intelligence, Surveillance, and Reconnaissance (ISR), and Battle 
Management (BM) enterprise. Robins Air Force Base is and will continue 
to be a key part of this enterprise. The number of personnel assigned 
to the enterprise is likely to evolve over the next several years.

                                  <all>
</pre></body></html>
